Violence Prevention Policies and Procedures, Milwaukee District Compliance         LM-AR-98-002




September 30, 1998

JOHN E. POTTER
SENIOR VICE PRESIDENT, LABOR RELATIONS

YVONNE D. MAGUIRE
VICE PRESIDENT, HUMAN RESOURCES

WILLIAM B. MCCOMB
ACTING VICE PRESIDENT, MIDWEST AREA OPERATIONS


SUBJECT: Audit Report -Violence Prevention Policies and Procedures, Milwaukee District
Compliance (LM-AR-98-002)

This report presents the results of our review of the Milwaukee District’s compliance with
violence prevention policies and procedures; and our determination if any deviations from those
policies and procedures contributed to the tragic events that occurred at the Milwaukee
Processing and Distribution Center on December 19,1997.

Management agreed with our report recommendations and provided us their comments as to the
actions taken or planned. We believe management’s comments are generally responsive to all
but two of the seven recommendations we made. Our evaluation of those comments are
contained in the recommendations section the report.

The cooperation and courtesies provided by your staff during the audit were appreciated. If you
have any questions please contact      , Senior Evaluator, Labor Management Team at            or
me at (703) 248-2300.



Billy Sauls
Assistant Inspector General
 for Employee

cc:




                                         Restricted Information
Violence Prevention Policies and Procedures, Milwaukee District Compliance   LM-AR-98-002




                                          TABLE OF
                                          CONTENTS


                                                                                 Page

Executive Summary                                                                 1


Background                                                                         2

Scope and Methodology                                                              2


Noncompliance With Policies and Procedures                                         3


TAT Violence Prevention Strategies Not Implemented                                 4


TAT Goals Not Attained                                                             6


TAT Primary Tasks Not Accomplished                                                 6


TAT Process Not Followed                                                           7


TAT Performance Not Measured                                                       7


Violence Awareness Training Not Mandatory                                          8


CMP Post Crisis Evaluation Incomplete                                              9


CMP And District Provisions For Families Not Clear                                10 


Conclusions                                                                       10

Recommendation 1                                                                  11 


Recommendations 2 and 3                                                           12 


Recommendations 4, 5 and 6                                                        13 


Recommendation 7                                                                  14 





                                         Restricted Information
Violence Prevention Policies and Procedures, Milwaukee District Compliance           LM-AR-98-002




                                  EXECUTIVE SUMMARY
                            This report responds to Congressman John M. McHugh, Chairman,
                            Subcommittee on the Postal Service, Committee on Government
                            Reform and Oversight, who requested information on the Milwaukee
                            District’s compliance with violence prevention policies and
                            procedures. Our objectives were to determine (1) if the Milwaukee
                            District Threat Assessment Team (TAT) was complying with United
                            States Postal Service (USPS) policies and procedures regarding the
                            prevention of violence in the workplace, and (2) if any deviations
                            from those policies and procedures may have contributed to the tragic
                            events of December 19, 1997, at the Milwaukee Processing and
                            Distribution Center (P&DC).

Results in Brief 	          The Milwaukee District TAT did not follow many of the violence
                            prevention policies and procedures outlined in the May 1997 TAT
                            Guide issued by USPS Headquarters.1 We identified three deviations
                            which may have contributed to the Milwaukee incident:

                            (1) a healthy work room environment had not been created and
                                maintained;
                            (2) case management or risk abatement plans for individuals identified
                                as potential threats to the workplace had not been created and
                                maintained; and
                            (3) violence prevention training for supervisors, managers, and
                                employees was not mandatory.

                            Although we are unable to determine whether following the policies
                            and procedures would have prevented the December tragedy from
                            happening, compliance with them might have provided management
                            with an indication of the mental state of the offender, as well as the
                            existing work climate of the office. This information could have been
                            used to assess actions needed to prevent the outbreak of violence.




11
     As of June 1, 1998.


                                         Restricted Information
Violence Prevention Policies and Procedures, Milwaukee District Compliance                          LM-AR-98-002




Background 
                   During the early morning hours of December 19, 1997, a mail clerk
                               assigned to the Milwaukee P&DC shot and seriously wounded his
                               supervisor, killed one co-worker, and wounded another. Despite the
                               attempts of a third co-worker to diffuse the situation, the clerk then
                               took his own life.

                               Congressman McHugh, concerned about the tragic events of that day,
                               requested that the Office of Inspector General (OIG) determine if the
                               Milwaukee District deviated from USPS violence prevention policies
                               and procedures. If so, Congressman McHugh asked us to determine if
                               the deviations could have contributed to the tragic event.


Scope &                        In performing the evaluation we reviewed applicable policies,
Methodology                    procedures, regulations, and statutes.2 In addition, we obtained
                               documents and reports from the Inspection Service and USPS officials
                               containing information about the workplace environment, as well as
                               descriptions of the events that took place December 19, 1997. We
                               also reviewed General Accounting Office reports for information
                               regarding environmental indicators of poor workroom climate.

                               To identify the District’s TAT activities, we interviewed USPS
                               Headquarters, Milwaukee District, and Midwest Area Office officials
                               knowledgeable of those activities and the events surrounding the
                               December 1997 incident. We reviewed documents and
                               correspondence provided by these officials as well as documents
                               provided by the Inspection Service.

                               To determine the District’s compliance with policies and procedures,
                               we compared the District’s TAT activities from August 19963 until
                               December 1997, to the criteria outlined in the TAT Guide as well as
                               other USPS publications. We then developed a list of policies and
                               procedures that the TAT did not follow. From that list we identified
                               deviations that might have contributed to the tragic incident.

2
 Criteria used to determine the District’s compliance with USPS violence prevention policies and procedures, was
found in USPS Publication 107, “Crisis Management Plan for Incidents of Violence in the Workplace;” USPS
Publication 108, “Threat Assessment Team Guide;” Healthy Workplace publication, “Dealing with Violence in the
Workplace;” USPS publication, “A Safe Workplace My Right, My Responsibility;” Postal Bulletin 21900, “Policy
Statement on Firearms in the Workplace;” Postal Bulletin 21811, “Joint Statement on Violence and Behavior in the
Workplace;” USPS Employee Labor Relations Manual, “Safety and Health Medical Services, Section 864;” USPS
Handbook EL-311, “Personnel Operations, Section 342;” the Americans with Disabilities Act of 1990; USPS
Milwaukee Performance Cluster, “Statement of Zero Tolerance for Acts or Threats of Violence in Our Workplace;”
National Institute for Occupational Safety and Health Violence in the Workplace, “Risk Factors and Prevention
Strategies;” and USPS Milwaukee District, “Contingency Plan for Violence and Credible Threats.”
3
 The period of time when the employee responsible for the violent acts was first brought to the attention of the TAT
(August) until the employee committed the violent acts (December).

                                              Restricted Information
Violence Prevention Policies and Procedures, Milwaukee District Compliance           LM-AR-98-002




                            Our audit work was conducted between January and June 1998 in
                            accordance with Generally Accepted Government Auditing Standards,
                            at USPS Headquarters in Washington, DC; the Midwest Area Office
                            in St. Louis, MO; and the Milwaukee District Office, P&DC, and the
                            Inspection Service in Milwaukee, WI.

Noncompliance               In February 1992, the USPS and various employee unions signed a
With Policies and           “Joint Statement on Violence and Behavior in the Workplace”. The
                            Joint Statement, the TAT Guide and Crisis Management Plan for
Procedures                  Incidents of Violence in the Workplace (CMP) clearly outline the
                            USPS position to provide and maintain a safe workroom floor through
                            the prevention of work-related violence.

                            The TAT Guide outlines several initiatives designed to assist the TAT
                            in responding to and assessing the seriousness of violent and
                            potentially violent situations. These initiatives include violence
                            prevention strategies, goals, tasks, processes, incident response, team
                            performance measurements, and employee education and training.

                            The CMP provides guidance to the District for responding to a work
                            disruption due to an incident of violence in the workplace, and in
                            completing a post crisis evaluation. The District’s Contingency Plan
                            also provides guidance for responding to violence in the workplace.

                            Both the TAT and CMP guides were issued in May 1997 and were
                            effective upon receipt. According to the Milwaukee District Human
                            Resources Manager, these guides were received in May or June 1997.
                            The District’s Contingency Plan is dated January 30, 1997.

                            Our analysis of the TAT’s compliance with policies and procedures
                            revealed that the Milwaukee District had not achieved the following:

                            •	 three of the six TAT violence prevention strategies were not
                               implemented;
                            •	 five TAT goals were not attained;
                            •	 three primary TAT tasks were not conducted;
                            •	 two important processes were not followed;
                            •	 TAT performance was not measured;
                            •	 violence awareness training was not provided for craft employees;
                               and
                            •	 violence awareness training was not mandatory for supervisors and
                               managers.

                            According to the District’s Human Resources Manager, the TAT did
                            not accomplish the TAT requirements because it did not have the time
                            nor manpower to do so. The Manager stated that TAT member

                                         Restricted Information
Violence Prevention Policies and Procedures, Milwaukee District Compliance                     LM-AR-98-002


                              responsibilities are in addition to their other day-to-day
                              responsibilities. For example, the District’s Human Resources
                              Manager is responsible for managing the human resources
                              requirements for the Milwaukee Performance Cluster as well as
                              coordinating and overseeing the TAT. He believes the requirements in
                              the TAT Guide can only be met with dedicated TAT members who
                              have no other conflicting duties.

TAT Violence 	                The District’s TAT is responsible for implementing six violence
Prevention                    prevention strategies to reduce workplace violence:
Strategies Not
                              • hiring the right people for the right job;
Implemented                   • ensuring appropriate safeguards for people and property;
                              •	 consistent communication and enforcement of postal policy
                                 regarding violent and inappropriate behavior;
                              •	 creating a safe and healthy work environment;
                              •	 providing employee support in dealing with problems at work and
                                 home; and
                              •	 safely separating employees from employment.

                              Our review disclosed that three of the six strategies had not been fully
                              implemented by the Milwaukee District TAT. Specifically, the TAT
                              did not:

                              •	 ensure appropriate safeguards for people;
                              •	 create or maintain a healthy workroom environment; nor
                              •	 consistently communicate and enforce postal policy regarding
                                 violent and inappropriate behavior.

Unsafe Workplace 	            The TAT Guide provides several references regarding the case
Environment 	                 management of, and follow up on, situations or individuals identified
                              as “threateners,”4 for the purpose of reducing risk to employees and
                              the organization. Failure to manage and follow up on these cases
                              could place other employees in an unsafe environment as evidenced
                              by the incident that occurred on December 19, 1997. Our review
                              disclosed that the employee responsible for the December 1997
                              incident had been identified by the District’s TAT in August 1996 as a
                              potential threatener. The employee was placed on administrative
                              leave pending a fitness-for-duty exam. Based on the exam results, the
                              TAT authorized his return to duty that same month.

                              In the fitness-for-duty exam, the physician found that the employee
                              did “not pose an acute danger to anyone at the Post Office.”
                              However, the physician acknowledged that he could not “predict what

4
 People who have shown a risk of violence toward others in the workplace or themselves and/or have committed
acts of physical violence.

                                            Restricted Information
Violence Prevention Policies and Procedures, Milwaukee District Compliance                  LM-AR-98-002


                                   the future will be,” and he recommended that the employee’s
                                   supervisors “continuously check in with him.” In spite of being aware
                                   of the physician’s recommendation, the TAT did not follow up on the
                                   recommendation. Had follow up occurred the TAT would have been
                                   aware that the employee was diagnosed with job-related stress 16
                                   times from the time he was returned to duty in August 1996 until the
                                   December 1997 incident. In fact, on October 8, 1996, just two months
                                   after he was returned to duty, the employee was diagnosed with a
                                   stress-related condition, which resulted in his being placed on a
                                   limited duty assignment not to exceed 40 hours a week. He remained
                                   in this status until his suicide in December 1997.

Unhealthy Workplace                Milwaukee’s workroom climate problems surfaced as far back as
Environment                        November 1994, when 39 employees of the Milwaukee P&DC
                                   complained to their U.S. Senator about unfair treatment and racial
                                   discrimination. Organizational climate studies conducted in 1995,
                                   1997, and 1998; Employee Opinion Surveys in 1994 and 1995; as well
                                   as letters written to the OIG and Midwest Area Vice President
                                   established that employees continued to complain about their work
                                   environment. The number of Equal Employment Opportunity (EEO)
                                   complaints and grievances filed are also indicators of labor relation
                                   problems in the Milwaukee facilities. USPS Headquarters, Area, and
                                   District officials agree that the workroom environment in the
                                   Milwaukee facilities is not as good as it should be.

Ineffective                        The USPS and District Zero Tolerance policies clearly state that acts
Communication and                  and statements of violence will result in consequences that could
Enforcement of Zero                include removal. However, we found that the District did not
Tolerance                          effectively communicate the Zero Tolerance Policy. Based on
                                   information provided to us by the Inspection Service5, we believe that
                                   discipline may not have been consistently applied to individuals who
                                   violated the Zero Tolerance Policy. For example, in one case, a
                                   postmaster was reported to have “struck” a rural carrier on the back
                                   and shoulder with a piece of mail during a disagreement between them
                                   regarding rural route count procedures. The postmaster received no
                                   administrative sanction. In another case, however, an employee was
                                   issued a letter of removal for telling another employee he was going to
                                   “beat up” a co-worker.

                                   To effectively communicate the Zero Tolerance Policy, the District
                                   must initiate corrective and progressive discipline against any
                                   employee who violates it. This is especially true in those cases
                                   where an employee verbally abuses or physically touches another
                                   employee or individual in an aggressive or angry manner, regardless
                                   of the circumstances.


5
    The Inspection Service is a situational advisor to the District’s TAT.

                                                  Restricted Information
Violence Prevention Policies and Procedures, Milwaukee District Compliance                                 LM-AR-98-002



TAT Goals Not                     The TAT is responsible for attaining five goals:
Attained
                                  •	   identify threateners;
                                  •	   assess the risk posed by the threats;
                                  •	   engage in case management;
                                  •	   contribute toward a safe workplace for employees; and
                                  •	   contribute to the reduction of inappropriate behavior in the
                                       workplace.

                                  The Milwaukee District TAT had not achieved any of the five goals.

                                  As previously discussed, it did not contribute toward a safe workplace
                                  for employees, nor engage in the case management of threateners.
                                  According to District and Area Office officials the TAT did not
                                  maintain a list of threateners. The TAT did discuss each threat made
                                  by employees, but did not assess them or develop risk abatement plans
                                  using the criteria in the TAT guide. We verified that TAT meetings
                                  and discussions took place from August 1996 through February 1998.
                                  However, the discussions were specific to the employees involved in
                                  particular threats and did not include discussions regarding earlier
                                  threats—such as follow up or the status of prior cases. In addition, we
                                  found no evidence that each threatener had been assigned a risk
                                  priority6 or that background inquiry information had been presented.

                                  Based on our comparison of the March 1998 Milwaukee
                                  Organizational Climate Survey and the surveys conducted in previous
                                  years, we do not believe the TAT contributed to reducing
                                  inappropriate behavior in the workplace. Employees continue to voice
                                  concerns that supervisor and craft employee relationships are strained
                                  and that there is racism, a lack of respect for employees, animosity,
                                  tension, and an antagonistic office environment. This is despite the
                                  District’s efforts, which began in 1995, to educate supervisors and
                                  managers with diversity and human relationship skills training.7

TAT Primary                       The TAT guide lists three primary tasks that need to be accomplished
Tasks Not                         when managing threats in the workplace: (1) identify the threateners,
                                  environmental and societal factors, and contributing events; (2) assess
Accomplished
                                  the risk; and (3) recommend a risk abatement plan. Some of the
                                  environmental factors to be evaluated include the condition of labor-
                                  management relations; ineffective communication; numbers of
                                  grievances, EEO complaints, and accidents; and employee

6 Priority 1 is an extreme risk, priority 2 is a high risk, priority 3 a low or moderate risk, and priority 4, no risk.
7
 The District has not developed any goals or measurements to determine the contribution the training has had on the
workroom floor. Using the March 1998 Organizational Climate Survey, it appears the training has had little
impact.


                                                 Restricted Information
Violence Prevention Policies and Procedures, Milwaukee District Compliance           LM-AR-98-002


                            perceptions. Contributing events to be considered include the
                            threatener’s perceived or pending job suspension or termination, loss
                            of a loved one, and alcohol or other drug relapse.

                            The District TAT did not accomplish any of the primary tasks to
                            manage threats in the workplace. The TAT did not identify the
                            environmental and societal factors that may have contributed to any
                            threat. As previously stated, risk assessments and abatement plans
                            were not done.

TAT Process Not             The TAT Guide requires that the TAT hold meetings at least quarterly
Followed                    to review cases and to educate TAT members. These meetings are to
                            include case management discussions of such matters as what is to be
                            done, by whom, when, the time frame for completion and for
                            reporting updates, as well as discussions regarding the monitoring of
                            environmental factors at identified work sites. The TAT Guide
                            requires that minutes of these meetings be kept and include risk
                            assessment findings on each case discussed, the risk priority rating
                            assigned, and risk abatement actions.

                            The TAT did not maintain minutes to its meetings, document risk
                            assessments, nor develop abatement plans. According to the District’s
                            Human Resources Manager, the TAT did not maintain minutes to its
                            meetings and activities because of the rules regarding “discovery”
                            should any of the individuals being discussed at the meetings file a
                            lawsuit against the USPS.

                            The TAT also did not document the completion of background
                            inquiries on persons identified as potential threateners. The
                            information sources to be checked include personnel records,
                            disciplinary records, safety and health records, injury compensation,
                            job and financial difficulties, as well as marriage and family
                            difficulties.

                            The District’s Human Resources Manager confirmed this information
                            is not formally documented, however, he believes personal notes
                            taken at the TAT meetings and kept by each of the members may
                            contain some of this information. We did not obtain nor review the
                            personal notes taken by members at meetings since the TAT Guide
                            requires formal documentation.

TAT Performance             The TAT Guide states performance measurements are necessary in
Not Measured                order to ensure a violence-free workplace. It lists several mechanisms
                            the TAT should use including a TAT survey, a local or performance
                            cluster incident tracking system, and a post incident analysis of each
                            violent incident. Our review disclosed, however, that the District’s
                            TAT did not develop any of the performance measurements. As a

                                         Restricted Information
Violence Prevention Policies and Procedures, Milwaukee District Compliance            LM-AR-98-002


                            result, it did not know how effective it had been in addressing
                            violence in the workplace issues.

                            The TAT survey is supposed to be sent to all supervisors, managers,
                            and employees associated with a threat. Survey recipients are asked to
                            respond to questions relating to how quickly the TAT responded to the
                            threat, how well it identified steps or actions necessary to solve the
                            problem, TAT recommendations, and the effectiveness of the TAT
                            steps taken in reducing future threats in the workplace.

                            The incident tracking system includes information such as the date of
                            threat, the location, what happened, the priority risk scale level, and
                            disposition.

                            The post incident analysis should include what happened, why it
                            happened, what could have been done to prevent it, what was done to
                            prevent it, what should have been done, and what could have been
                            done better. Other indicators the TAT could review for inclusion in
                            the analysis are the numbers of employees who attended workplace
                            violence awareness program training, and the number of EEO
                            complaints and grievances.

Violence                    TAT policy describes violence awareness education of supervisors,
Awareness                   managers, and employees as vital to preventing violence in the
                            workplace. The policy states that employees should be made aware of
Training Not
                            local systems and processes to support zero tolerance, and that every
Mandatory                   supervisor and manager must receive 8 hours of violence awareness
                            training. Training should be followed up with 4 additional hours
                            relating to such topics as defusing a difficult situation, providing
                            effective supervision, and managing angry and troubled employees.

                            District and Area officials told us, with the exception of union
                            stewards, craft employees are not offered the violence awareness
                            training because of the time and cost to administer it. The training is
                            offered to all supervisors and managers but attendance is not
                            mandatory. Our review of violence awareness training documents for
                            calendar years 1995 through 1997, disclosed that less than 40 percent
                            (105 of the 272) of the supervisors and managers assigned to the

                            Milwaukee P&DC and Main Post Office during that period received
                            the training.

                            We believe the violence awareness training provided to supervisors
                            and managers should also have been mandatory for craft employees
                            given the circumstances surrounding the December 19, 1997 incident.
                            Specifically, interviews with the offender’s co-workers disclosed
                            important information known by them regarding the offender’s

                                         Restricted Information
Violence Prevention Policies and Procedures, Milwaukee District Compliance                       LM-AR-98-002


                              possible motives for the shooting. In addition, at least two craft
                              employees came into direct contact with the offender, immediately
                              prior to, and just after the shooting. One employee received written
                              notes from the offender indicating something was about to happen, but
                              did not take him seriously. The second employee tried to reason with
                              the offender before the offender turned the gun on himself. It is
                              possible that had these individuals been trained in violence awareness
                              they may have recognized the warning signs of violence, and could
                              have defused the situation.

CMP Post crisis               The CMP Guide requires that when the workforce has returned to
Evaluation                    normal day-to-day operations, senior management and the Crisis
                              Management Team must conduct a comprehensive review of the crisis
Incomplete                    management process. This includes a time-line narrative from the
                              sequence of events (if known) that lead to the crisis and its conclusion.

                              On February 2, 1998, at the request of the USPS Headquarters
                              Manager for Safety and Workplace Assistance, the District’s Human
                              Resources Manager submitted a post crisis evaluation regarding the
                              December 19, 1997 incident. The District’s statement regarding what
                              caused and could have prevented the crisis contained less than eight
                              lines of text. It did not contain information on potential contributing
                              factors such as labor relations issues, EEO and grievance complaints,
                              and employee perceptions of unfair discipline and treatment. These
                              factors are listed in the CMP as indicators to be reviewed and
                              considered.
                              Had the evaluation been comprehensive it might have disclosed such
                              factors as the employee’s poor relationship with his supervisor (whom
                              he seriously wounded) and co-worker (whom he killed). It might also
                              have disclosed that a significant number of employees viewed the
                              supervisor’s management style as autocratic. The evaluation also
                              made no reference to an EEO complaint, and correspondence written
                              by the employee indicating his poor relationships with these
                              individuals. There was also no reference to the fact that he was trying
                              to get transferred from the facility, nor that he had requested a change
                              in tours of work just one week before the shooting.8
                              The post crisis evaluation devoted only two sentences to describe what
                              could have been done to prevent the crisis: “Restricted accesses
                              manned by Postal Police Officers who employ security measures and
                              devices similar to that used at airports. Greater levels of trust between
                              employees and supervisors.” The evaluation should have included the
8
 Three attempted out-of-state transfers to Springfield and Eugene, OR, and Florida; one transfer to tour 1 in
February 1997 which was accomplished but then rescinded 2 weeks later due to a mistake on the part of the
District’s Personnel Office; and an attempt to make an appointment with the Facility Plant Manager in December
1997, one week before the shooting, to discuss a transfer from tour 1.


                                             Restricted Information
Violence Prevention Policies and Procedures, Milwaukee District Compliance            LM-AR-98-002


                            need for case management of threateners and specific improvements
                            to labor-management relations.

CMP And District            The CMP is not clear as to provisions afforded family members of
Provisions For              deceased employees and is in conflict with the Milwaukee District
                            Contingency Plan. Specifically, the CMP provides for the payment of
Families Not Clear          “flowers, donations, etc.” for family members of the deceased
                            “individuals” but restricts visits by postal management to the families
                            of deceased “victims”. The District’s Contingency Plan states that in
                            the event of a fatality, notification of families (no stipulation as to
                            victim or employee) should be made in person by a postal manager.

                            District Officials told us the USPS sent flowers and messages of
                            condolences to both employees wounded in the December incident,
                            and to the family of the murdered employee. In addition, the USPS
                            paid the funeral expenses of that employee. The Postmaster made
                            personal visits to both wounded employees and the family of the
                            murdered employee. However, none of these services were provided
                            to the family of the employee responsible for the shooting, despite the
                            fact that like other family members, they too were victims of the
                            violence.

                            According to the District’s Human Resources Manager there was a
                            considerable amount of discussion between management officials at
                            all levels regarding whether or not the District should extend the same
                            provisions to the family members of the employee who committed the
                            shootings as those provided to the other families. While most agreed
                            the employee’s family members were victims of the incident, they did
                            not want the perception that the USPS was providing support to the
                            employee. In this regard it was decided no provisions would be
                            extended.

Conclusions 	               The following three deviations from TAT policies and procedures
                            may have contributed to the tragic incident: (1) a healthy work room
                            environment had not been created or maintained; (2) a case
                            management or risk abatement plan was not created for the individual
                            identified as a potential threat to the workplace; and (3) supervisors,
                            managers, and employees had not received violence prevention
                            training.

                            The Milwaukee facilities have experienced unhealthy workroom
                            conditions since at least November 1994. Although the District has
                            provided some training, the March 1998 climate study indicates the
                            problems still existed as of that date.

                            Case management and the development of a risk abatement plan for
                            the offender may have provided the TAT with information necessary

                                         Restricted Information
Violence Prevention Policies and Procedures, Milwaukee District Compliance           LM-AR-98-002


                            to determine the mental state of the offender and the work climate of
                            the workroom floor. Such information may have prevented the
                            violence from occurring.

                            Mandatory violence awareness training would provide craft
                            employees and supervisors/managers with tools necessary to
                            recognize the warning signs of violence and to defuse a difficult
                            situation.

                            Clear guidance did not exist regarding provisions for the families of
                            deceased employees, including the families of employees’ responsible
                            for violent incidents.

Recommendation              The Vice Presidents for Labor Relations, Human Resources, and
     #1                     Midwest Area Operations should:

                            1. 	 Contract with experts in the field of human behavior for the
                                 purpose of determining how to improve the workroom climate
                                 in the Milwaukee facilities.

Management’s                Management’s verbatim comments are at Attachment 1. Management
Comments                    agreed with our recommendation and told us that the District is
                            finalizing a statement of work with an outside consulting firm which
                            specializes in the areas of diversity and leadership behaviors which
                            affect the work force environment. The goal of their consultation will
                            be to design a comprehensive set of initiatives to improve the
                            workplace climate.

                            In addition, Management told us that the District solicited a proposal
                            from a Wisconsin university to provide human relations training for
                            all managers. The university responded with a proposal which centers
                            around developing and delivering a 60 hour curriculum over an 18
                            month period. Management told us the curriculum will be based on
                            the USPS “Leadership Behavior Resource Guide” which focuses on
                            the behavioral objectives of treating people with dignity and respect;
                            communicating well; training and developing people; valuing
                            diversity; having and demonstrating integrity; pursuing excellence;
                            focusing on customers; and accepting community responsibility. The
                            university has indicated that the first workshops can be offered the
                            first full week of January 1999.
Evaluation of
Management                  We believe that Management’s initiatives, when fully implemented
Comments                    and followed, should improve the workroom environment in the
                            Milwaukee District facilities. We noted however, that the 60 hour
                            curriculum training regarding human relations training, is limited to
                            supervisors and managers. We encourage management to make this
                            training available to all employees.

                                         Restricted Information
Violence Prevention Policies and Procedures, Milwaukee District Compliance            LM-AR-98-002


Recommendation 
            2. 	 Dedicate adequate resources to fully comply with TAT policies
     #2                          and procedures, including the permanent assignment of
                                 individuals to those responsibilities.

Management’s                Management advised us that there were no performance clusters in the
Comments                    Area that had a full-time person assigned to focus solely on the TAT
                            duties. They stated that the TAT, in its examination of the context of
                            threats or acts of violence, makes recommendations to management
                            about possible actions which may improve the immediate workplace
                            environment. They believe a safe workplace is everybody’s
                            responsibility with the ultimate responsibility for creating and
                            maintaining the healthy workroom environment resting with
                            management specifically, but all involved parties in general.

Evaluation of               Management stated, however, that given the history and current
Management                  situation in Milwaukee, the Midwest Area would detail an individual
Comments                    or individuals to Milwaukee to assist the TAT in complying fully with
                            TAT policies and procedures. They estimated the individual would
                            arrive in October 1998 for a period not to exceed 120 days.

                            We do not fully concur with Management’s response that the detail of
                            an individual(s), for a period not to exceed 120 days, will enable the
                            TAT to comply with TAT policies and procedures. We found that
                            most, if not all of the TAT Guide requirements had not been followed
                            because the TAT did not have the time or manpower to accomplish
                            them. While one or two individuals, on a short term detail, would be
                            instrumental in getting the TAT organized with policies and
                            procedures in place, we believe many TAT activities require a fair
                            amount of commitment in order for the TAT requirements to be met.
                            We plan to reevaluate this issue in a future audit.

Recommendation              3. 	 Ensure that the TAT fully implement the policies and
    #3                           procedures outlined in the TAT Guide particularly in the
                                 areas of determining the environmental, societal and other
                                 contributing events to incidents of violence; creating and
                                 maintaining a healthy work room environment; case
                                 management of threateners; and the development of risk
                                 assessment and abatement plans.

Management’s                Management agreed with this recommendation and said that the Area
Comments                    Office and Headquarters would send individuals to Milwaukee at the
                            outset of the October 1998 detail of individual(s) mentioned in
                            recommendation #2. They stated that this would ensure shared
                            understanding of the purpose and goal of the detail, the tasks at hand,
                            and the processes by which to resolve questions and problems. The
                            area and headquarters staff will return 90 days later to ensure the
                            policies and procedures of the TAT Guide are being implemented.

                                         Restricted Information
Violence Prevention Policies and Procedures, Milwaukee District Compliance          LM-AR-98-002




Evaluation of               We concur with Management’s response that Area Office and
Management                  Headquarters personnel will assist the TAT in implementing the
Comments                    policies and procedures.

Recommendation              4. 	 Enforce compliance with the CMP requirement for
    #4                           comprehensive postcrisis evaluations.

Management’s                Management agreed with this recommendation and stated that it will
Comments                    re-emphasize the need for comprehensive postcrisis evaluations in a
                            memorandum to be issued no later than October 2, 1998. It will also
                            establish a system to monitor compliance with this requirement.
                            Publication 107, Crisis Management Plan for Incidents of violence in
                            the workplace, is in the process of being revised and will include
                            further instruction on the purpose and process of completing the post
                            crisis evaluation. Management expects the revision to be completed
                            and disseminated in FY 1999.

Evaluation of               We concur with Management’s response.
Management’s
Comments

Recommendation              5. 	 Strictly adhere to the USPS Zero Tolerance Policy as it relates
     #5                          to issuing disciplinary action for inappropriate behavior
                                 regardless of the circumstances.

Management’s                Management agreed with the criteria of dealing with violence in the
Comments                    workplace as provided in the USPS Zero Tolerance Policy. They said
                            that violence or threats of violence by employees at any level is
                            inappropriate and will have consequences, up to and including
                            removal. They further provided that the consequences will be
                            administered in accord with national labor agreements and the
                            Employee and Labor Relations Manual.


Evaluation of               We believe that management’s response to this recommendation is
Management’s                unclear as to how it will correct the District’s ineffective
Comments                    communication and enforcement of the Zero Tolerance Policy. As
                            stated in the report, we believe discipline must be assessed against
                            employees that exhibit inappropriate behaviors in the workplace. We
                            plan to reevaluate this issue in a future audit.

Recommendation              6. 	 Mandate attendance at violence awareness training for all
     #6                          craft employees, supervisors, and managers.

Management’s                Management agreed with this recommendation and stated that
Comments                    attendance would be mandated at future violence awareness training.

                                         Restricted Information
Violence Prevention Policies and Procedures, Milwaukee District Compliance           LM-AR-98-002


                            They stated that the training curriculum for craft employees is under
                            development with the first draft scheduled for completion by mid-
                            October 1998. They stated that the necessary coordination,
                            development and deployment would follow.

Evaluation of               We concur with Management’s response to this recommendation and
Management                  suggest that District and Area Management monitor compliance with
Comments                    the training requirements. In addition, we encourage the prompt
                            completion of the violence awareness training curriculum for craft
                            employees.

Recommendation              7. 	 Clarify USPS guidance regarding provisions for the families of
     #7                          deceased employees, including the families of employees
                                 responsible for violent incidents.

Management’s                Management agreed with this recommendation and told us that the
Comments                    language in the CMP guide was being revised to clarify this guidance.
                            They said that this is clearly a topic with significant and complicated
                            public perception (internal and external), legal, and perhaps financial
                            ramifications. They further provided that a recommendation
                            regarding the provision of services to the “perpetrator’s” family is
                            expected to be presented to the Management Committee by November
                            18, 1998 for their decision. This decision will be disseminated to any
                            site with a similar occurrence, should one happen prior to issuance of
                            the revised CMP guide. Management stated that a service which will
                            be provided to the perpetrator’s family members is that of the
                            Employee Assistance Program counseling, so that the family members
                            can better deal with their own losses.

Evaluation of               We concur with Management’s response to this recommendation and
Management                  encourage the prompt revision and issuance of the CMP guide.
Comments




                                         Restricted Information
Major Contributors to This Report Were:
